VISA PLATINUM
F1
CREDIT CARD ACCOUNT OPENING DISCLOSURE
This Addendum is incorporated into and becomes part of your LOANLINER® Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER® Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Penalty APR and When it Applies
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau

F2
7.50%

This APR will vary with the market based on the Prime Rate.
F3
7.50%
This APR will vary with the market based on the Prime Rate.
F4
7.50%
This APR will vary with the market based on the Prime Rate.
F5
None
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
- Annual Fee
F6
None
- Account Set-up Fee
F7
None
- Program Fee
F8
None
- Participation Fee
F9
None
- Additional Card Fee
F10
None
- Application Fee
F11
None
Transaction Fees
- Balance Transfer Fee
F12
None
- Cash Advance Fee
F13
of the amount of each cash advance
3.00%
- Foreign Transaction Fee
F14
of each transaction in U.S. dollars
1.00%
- Transaction Fee for Purchases
F15
None
Penalty Fees
- Late Payment Fee
Up to F16
$20.00
- Returned Payment Fee
Up to F17
$25.00
How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
F18
or the amount of the required minimum payment, whichever
$20.00
is less, if you are five (5) or more days late in making a payment.
Returned Payment Fee
F19
or the amount of the required minimum payment, whichever
$25.00
is less.
Statement Copy Fee
F20
$5.00
Document Copy Fee
F21
$5.00
Rush Fee
F22
$25.00
Emergency Card Replacement Fee
F23
$165.00
PIN Replacement Fee
F24
$5.00
Card Replacement Fee
F25
$5.00
Express Shipping Fee
F26
$25.00
©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DMIGF2 (MXC452 CCM002)-e

SEE BACK OF PAGE for more important information about your account.

Collection Costs. You promise to pay all costs of collecting the amount you owe under this Agreement to the extent
permitted by state law.
Periodic Rates.
The Purchase APR is F27
which is a daily periodic rate of F28
7.50%
0.0208%.
The Balance Transfer APR is F29
which is a daily periodic rate of F30
7.50%
0.0208%.
The Cash Advance APR is F31
which is a daily periodic rate of F32
7.50%
0.0208%.
Variable Rate.
The ANNUAL PERCENTAGE RATE is subject to change on the first day of the billing cycle quarterly to reflect any
change in the Index and will be determined by the Prime Rate on the first day of each quarter (January, April, July,
October) of each year as published in The Wall Street Journal "Money Rates" table to which we add a margin. The
ANNUAL PERCENTAGE RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE
will take the form of additional payments shown as Total Minimum Payments on the statement. If the Index is no longer
available, the Credit Union will choose a new index which is based upon comparable information.
Margin.
Purchases will be charged at F33
above the Index.
4.00%
Balance transfers will be charged at F34
above the Index.
4.00%
Cash advances will be charged at F35
above the Index.
4.00%

DMIGF2 (MXC452 CCM002)-e

